<html>
<title> - JOINT HEARING ON THE LEGISLATIVE PRESENTATION OF THE AMERICAN LEGION</title>
<body><pre>[Joint House and Senate Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-257

  JOINT HEARING ON THE LEGISLATIVE PRESENTATION OF THE AMERICAN LEGION

=======================================================================

                             JOINT HEARING

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS

                               BEFORE THE

                              U.S. SENATE

                                AND THE

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2020

                               __________

      Formatted for the use of the Committee on Veterans' Affairs
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-270 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
       
                 SENATE COMMITTEE ON VETERANS' AFFAIRS

                     Jerry Moran, Kansas, Chairman

John Boozman, Arkansas               Jon Tester, Montana, Ranking 
Bill Cassidy, Louisiana                  Member
Mike Rounds, South Dakota            Patty Murray, Washington
Thom Tillis, North Carolina          Bernard Sanders, (I) Vermont
Dan Sullivan, Alaska                 Sherrod Brown, Ohio
Marsha Blackburn, Tennessee          Richard Blumenthal, Connecticut
Kevin Cramer, North Dakota           Mazie K. Hirono, Hawaii
Kelly Loeffler, Georgia              Joe Manchin III, West Virginia
                                     Kyrsten Sinema, Arizona

            Caroline R. Canfield, Republican Staff Director
                Tony McClain, Democratic Staff Director

        HOUSE OF REPRESENTATIVES COMMITTEE ON VETERANS' AFFAIRS

                   Mark Takano, California, Chairman

Julia Brownley, California           Dr. Phil Roe, Tennessee, Ranking 
Kathleen Rice, New York                  Member
Conor Lamb, Pennsylvania             Gus M. Bilirakis, Florida
Mike Levin, California               Amata C. Radewagen, American Samoa
Anthony Brindisi, New York           Mike Bost, Illinois
Max Rose, New York                   Dr. Neal Dunn, Florida
Chris Pappas, New Hampshire          Jack Bergman, Michigan
Elaine Luria, Virginia               Jim Banks, Indiana
Susie Lee, Nevada                    Andy Barr, Kentucky
Joe Cunningham, South Carolina       Dan Meuser, Pennsylvania
Gil Cisneros, California             Steve Watkins, Kansas
Collin Peterson, Minnesota           Chip Roy, Texas
Gregorio Kilili Camacho Sablan,      Greg Steube, Florida
    Northern Mariana Islands
Colin Allred, Texas
Lauren Underwood, Illinois

                       Ray Kelley, Staff Director
                 Jon Towers, Republican Staff Director

                            C O N T E N T S

                              ----------                              

                       Wednesday, March 11, 2020

                      SENATORS AND REPRESENTATIVES

                                                                   Page
Moran, Hon. Jerry, Chairman, U.S. Senator from Kansas............     1
Takano, Hon. Mark, Chairman, U.S. Representative from California.     2
Roe, Hon. Phil, M.D., Ranking Member, U.S. Representative from 
  Tennessee......................................................     4
Tillis, Hon. Thom, U.S. Senator from North Carolina..............     6
Tester, Hon. Jon, Ranking Member, U.S. Senator from Montana......    15
Bost, Hon. Mike, U.S. Representative from Illinois...............    17
Pappas, Hon. Chris, U.S. Representative from New Hampshire.......    18
Lamb, Hon. Conor, U.S. Representative from Pennsylvania..........    22
Cisneros, Hon. Gil, U.S. Representative from California..........    23
Boozman, Hon. John, U.S. Senator from Arkansas...................    25
Sinema, Hon. Kyrsten, U.S. Senator from Arizona..................    26
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................    31

                               WITNESSES

Oxford, James W. ``Bill,'' National Commander, The American 
  Legion; accompanied by Joseph Sharpe, Director, Veterans 
  Employment and Education Division; Daniel Seehafer, Chairman, 
  Veterans Employment and Education Commission; Melissa Bryant, 
  National Legislative Director; Chanon Nuntavong, Director, 
  National Veterans Affairs and Rehabilitation Division; Ralph 
  Bozella, Chairman, Veterans Affairs and Rehabilitation 
  Commission; and Vincent Troiola, Chairman, National Legislative 
  Commission.....................................................     7

                                APPENDIX

Moran, Hon. Jerry, Chairman, U.S. Senator from Kansas, Prepared 
  Statement......................................................    36
Oxford, James W. ``Bill,'' National Commander, The American 
  Legion, Prepared Statement.....................................    37

 
  JOINT HEARING ON THE LEGISLATIVE PRESENTATION OF THE AMERICAN LEGION

                              ----------                              


                       WEDNESDAY, MARCH 11, 2020

                               U.S. Senate,
                 and U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committees met, pursuant to notice, at 10 a.m., in room 
SD-G50, Dirksen Senate Office Building, Hon. Jerry Moran and 
Hon. Mark Takano, Chairmen of the Committees, presiding.
    Senators present: Moran, Boozman, Rounds, Tillis, Sullivan, 
Tester, Brown, Manchin, and Sinema.
    Representatives Present: Takano, Lamb, Brindisi, Rose, 
Pappas, Cunningham, Cisneros, Peterson, Allred, Underwood, Roe, 
and Bost.

             OPENING STATEMENT OF HON. JERRY MORAN

    Chairman Moran. The hush suggests that it is time to 
commence our meeting, and I am happy to do that.
    Over the past few weeks we have had the pleasure and the 
ability to learn from a number of veterans and veteran service 
organizations. Today we gather with The American Legion, and 
this is our fifth hearing and final legislative presentation by 
a VSO.
    Commander Oxford, thank you and your fellow Legionnaires 
for joining us, my colleagues and I, one of which is seated 
next to you. We are looking forward to hearing from you and 
learning the Legion's top legislative priorities.
    As we have done previously, only to keep up with my 
colleagues here, I would take a moment to recognize the Kansans 
who are here from my State, members of The American Legion, 
friends and important citizens of our State, one and all. If 
they would stand and be recognized, I would appreciate seeing 
their presence.
    [Applause.]
    Chairman Moran. Thank you and thank you for the 
conversation we had in my office yesterday.
    All of you, your willingness to join us today is a 
testament of your unwavering commitment to your brothers and 
sisters in arms. As we all know, transforming the VA into a 
21st century VA is a monumental task that requires all hands on 
deck. Veteran service organizations, like The American Legion 
and their members, play a critical role in this process. You 
are the front lines and see first-hand where the VA is thriving 
and where it faces challenges.
    I have indicated many times that what I know, and my 
legislative priorities are in large part determined by the 
conversations I have in Kansas and across the country with 
veterans, and certainly The American Legion is a significant 
component of my knowledge of where attention is needed.
    The American Legion gives voice to veterans who at times 
can feel unheard or marginalized. You also provide an annual 
check for our communities and help make certain that we are on 
the right track. My father was a member of The American Legion 
post in my hometown and I am the son of The American Legion and 
I am honored to have that distinction and honored to do so in 
respect for my father.
    Commander Oxford, while I was reading over your written 
testimony I noticed the Legion and I share a number of 
priorities, and I am glad for that, from enhancing suicide 
prevention to addressing toxic exposure to improving women's 
health care. You have my commitment that the Senate Veterans' 
Affairs Committee will continue to work with you and the larger 
veteran community on addressing these and other priorities.
    We look forward to your presentation today and will 
continue to work with you to make certain that veterans' voices 
are heard and that they receive the care and attention that 
they deserve.
    It is my pleasure now to turn to Chairman Takano, the 
Chairman of the House Veterans' Affairs Committee.

             OPENING STATEMENT OF HON. MARK TAKANO

    Chairman Takano. Thank you, Chairman Moran. It is a honor 
to be here for the last, but certainly not the least, joint 
House and Senate veteran service organization hearing of the 
year. I would like to welcome all of The American Legion 
members and auxiliary members who have joined us today, and I 
look forward to your testimony.
    Before we get started I would like to recognize all of our 
members from my home State of California. Would all the 
Californians please stand or raise their hand.
    [Applause.]
    Chairman Takano. Welcome. Welcome.
    Reading today's testimony it is clear that we share many of 
the same priorities. We must address the national crisis of 
veteran suicide. Veterans must receive high quality health 
care. We must understand the full impacts of toxic exposures 
and make sure that another generation of veterans does not have 
to wait for the benefits and care they need and deserve.
    In addition, as our veteran population grows increasingly 
more diverse, we must support our women, LGBTQ, minority, and 
Native American veterans. The legislation we passed must 
improve access to culturally competent care for all veterans.
    As Chairman, I have made reducing veteran suicide my number 
one priority. It is our job to create sound, well-researched 
policy and not simply perpetuate approaches that are not proven 
to prevent suicide. We take that responsibility very seriously. 
Our approach to suicide prevention takes into account multiple 
factors that could reduce veteran suicide, everything from 
lowering the economic burdens on veterans to increasing access 
to care and improving crisis intervention for those at high 
risk.
    One critical step toward addressing veteran suicide is to 
expand access to emergency mental health care for veterans in 
crisis. That is why I introduced H.R. 5697, the Veterans Access 
Act. This legislation would ensure all veterans, regardless of 
their discharge status or eligibility for other VA health care 
benefits, have access to the emergency mental health care they 
need. I look forward to working with The American Legion to 
pass this bill and save veterans' lives.
    We also have a duty to ensure this administration 
recognizes the impact of toxic exposure during military 
service, and that VA takes action before it is too late. Our 
veterans should not have to wait 40 years for the VA to 
recognize that a veteran is suffering from past exposure in 
order to get the benefits they earned.
    For example, I am urging the administration to add four 
diseases to the Department's presumption list that we know to 
be linked to Agent Orange exposure. This will ensure many more 
veterans can access crucial VA disability and health care 
benefits. I know that with the support and insight of The 
American Legion we can continue to hold the administration 
accountable and work to fulfill the promises that we have made 
to our veterans. Let me just emphasize, our Vietnam veterans 
have waited too long. Now is the time to add those conditions 
to the presumptive list.
    I look forward to hearing your testimony and thank you all 
for the work that you have done and service to veterans and 
their families.
    I now yield back, Mr. Chairman.
    Chairman Moran. Mr. Chairman, thank you, and I now 
recognize the Ranking Member of the House Committee, 
Congressman Roe.

               OPENING STATEMENT OF HON. PHIL ROE

    Dr. Roe. Thank you, Mr. Chairman, and good morning, 
Commander Oxford. It is a pleasure for me to be here with 
Chairman Takano, Chairman Moran, and Ranking Member Tester to 
welcome you and your fellow Legionnaires to Washington. This is 
my 12th and final year in Congress and so my final time 
attending this hearing, and when you leave, Commander, they 
send you this sheet called Departing Members. I am not planning 
on departing. I am just leaving Congress.
    It has been an honor for me to attend the Legion's annual 
hearing, joint hearing, all these years. As I prepare for my 
retirement I can say, without a moment's hesitation, I am 
filled with tremendous pride and hope for our country's future, 
because the patriotism and the passion of Legionnaires across 
this country, many of whom I have had the privilege of meeting 
and getting to know personally.
    I want to thank each and every one of you for your 
continued service. In particular, I want to welcome the 
Legion's stellar national leadership team who work tirelessly 
day in and day out under the direction of Commander Oxford. I 
thank you for your staff. They have been great to work with.
    Sir, I am so grateful for your decades that you spent 
defending our freedoms, first in the Marine Corps and then in 
the Army, and now as the National Commander of The American 
Legion. I am glad to see you are here with us today, and I also 
want to acknowledge the members of The American Legion 
auxiliary. We know who does all the work, the auxiliary. The 
many hats that you wear as spouses, as volunteers, as 
caregivers and more, it does not go unnoticed or under 
appreciated, and I thank you for that.
    Finally, I want to say a special hello and thanks to the 
Legionnaires who are here today from my great State of 
Tennessee. I met with you. If you would please stand so we can 
recognize you. I know Bob is here. Yep, there we are.
    [Applause.]
    Dr. Roe. Commander Oxford, you know, in your testimony, 
``The American Legion believes veterans have given this country 
far more than what is asked in return.'' I could not agree more 
with you. It would be impossible for me to detail all of the 
work that The American Legion has performed throughout your 
more than a century of service or the value that the Legion 
continues to bring to bear on matters of military veteran 
national security policy even now.
    It is with the help of the Legion and working with our 
Committees and with our partners in the Trump administration 
that the Department of Veterans Affairs has undergone such a 
positive transformation over the last few years. Thanks to our 
mutual efforts I am proud to report that veterans today have 
greater access to care, greater control over their care than 
ever before. Veterans can use their GI Bill benefits whenever 
they choose.
    Veteran unemployment reached near record lows. Veterans 
getting their appeals for disability compensation decided 
faster and more efficiently, thanks to Mr. Bost right here, his 
bill. Veterans of the Blue Water Navy are receiving the 
benefits they have earned, and that took way too long to get 
done. Fewer veterans are homeless. Fewer veterans are dependent 
on opioids. The widows tax has been repealed. The VA has more 
funding, more staff, and has risen from one of the lowest-
ranking agencies to one of the top six best places to work in 
the Federal Government.
    I know in my own hometown of Johnson City, TN, I almost 
never hear a negative comment about the VA hospital there. I am 
extremely proud of that.
    We should all be proud of those successes, even as we 
acknowledge that work remains, much of which is detailed in the 
commander's testimony. Looking ahead, we must remain steadfast 
in our efforts to prevent veteran suicide by instilling hope 
and purpose in all of those who have served and doing a better 
job of leveraging communities of care to support them and their 
families; to empower veterans to succeed in their civilian 
lives, to realign and modernize the VA health care system so 
that it meets our Nation's veterans where they live and serves 
them well; to expand VA's caregiver program so that it serves 
caregiver veterans of all eras; to those who have experienced 
toxic exposures during their time in uniform; and to continue 
aggressive oversight of very aspect of VA, our Nation's second-
largest bureaucracy; to ensure that every veteran who walks 
into a VA office, facility, or clinic receives timely, quality 
care.
    I look forward to discussing these issues and more with you 
today, Commander Oxford, and to building on our successes over 
the past 3 years on behalf of Legionnaires and veterans across 
the country. I salute you and I yield back my time.
    Chairman Moran. Congressman Roe, thank you very much. I am 
going to recognize, in just a moment, Senator Tillis. 
Commander, I want you to know that you are going to see me 
depart just momentarily, about the time that you begin to 
testify, and I hate that.
    Dr. Roe. Please leave, not depart.
    Chairman Moran. Oh, depart. I am not departing. Thank you.
    [Laughter.]
    Chairman Moran. I intend to come back alive and well in 
just a few moments. I have a couple of bills pending another 
committee that are being voted on. But, I will return to make 
certain that we pay significant attention to what you have to 
say and the questions and answers that I will learn from.
    At this moment let me now turn to my colleague from North 
Carolina, Senator Thom Tillis. Thom is a member of our Senate 
Veterans' Affairs Committee, active, fully engaged, and a great 
ally in the effort to make sure that veterans are well cared 
for.
    I now recognize, you, Senator Tillis.

                      SENATOR THOM TILLIS

    Senator Tillis. Thank you, Chairman Moran, Chairman Takano, 
Ranking Member Roe, and distinguished Members of the Committee. 
If I may, as a point of personal privilege, ask, anybody who is 
from North Carolina, either currently or passed through North 
Carolina in relation to your service, please stand up or raise 
your hand.
    [Applause.]
    Chairman Moran. Senator Tillis, you one-upped all of us, 
and with that I am going to walk out on you, not the Commander.
    [Laughter.]
    Senator Tillis. Well, thank you, Mr. Chairman, and first I 
am very proud to be sitting next to Bill Oxford. I have had the 
distinct pleasure of getting to work with him many times over 
the past several years in his many capacities, as he has 
continued to serve after his military service. He has virtually 
held every position one could hold within The American Legion, 
both in North Carolina and at the national level.
    Bill Oxford was elected National Commander of The American 
Legion on August 29, 2019, during the organization's 101st 
national convention in Indianapolis. He has been a member of 
the Nation's largest veterans' organization since 1986. A 
native of Lenoir, North Carolina, Mr. Oxford is a paid-up-for-
life member as well as the past commander of Post 29 in Lenoir. 
He served as the Department Commander of North Carolina 
American Legion from 2010 to 2011.
    He is a veteran of the U.S. Marine Corps. Mr. Oxford was an 
aviation electronic technician for the A6 Intruder and served 
in Vietnam during his initial enlistment. After being 
discharged as a sergeant in 1970, Mr. Oxford joined the North 
Carolina National Guard. He subsequently attended Officer's 
Candidate School and transferred to the U.S. Army Reserve where 
he ultimately retired as colonel after more than 34 years of 
military service.
    A former mayor and city councilmember of Cajah's Mountain, 
North Carolina--I think I did not think I could pronounce that 
right, they gave me a phonetic one--he has worked since his 
high school as a high school student with most of his career 
choices being in maintenance and engineering field.
    Mr. Oxford has also served his community by volunteering as 
a coach, umpire, referee, administrator in several youth 
athletic programs, and he has also served as the public address 
announcer for Post 29 American Legion baseball team.
    Mr. Oxford's lifelong record of service to our Nation and 
to our community have prepared him well to lead The American 
Legion. His theme as National Commander of The American Legion 
is ``a foundation for the future,'' as the organization enters 
its second century of service. That is a fitting theme for Mr. 
Oxford's tenure, given our work together on the Legion Act, a 
bill that expands eligibility for membership for The American 
Legion to veterans of all eras. I was proud to co-lead this 
bill with Senator Sinema and worked closely with The American 
Legion to successfully get the bill signed into law just last 
summer.
    With that, it is my great privilege and honor to welcome a 
fellow North Carolinian, Bill Oxford, to this hearing on behalf 
of The American Legion. I know you are going to do us proud.
    [Applause.]
    Senator Tillis. Mr. Chairman, I did tell him not to mess 
up.

 STATEMENT OF JAMES W. ``BILL'' OXFORD; ACCOMPANIED BY JOSEPH 
  SHARPE; DANIEL SEEHAFER; MELISSA BRYANT; CHANIN NUNTAVONG; 
               RALPH BOZELLA; AND VINCENT TROIOLA

    Mr. Oxford. I will try my best. Thank you, Senator Tillis, 
for the kind introduction and for your bipartisan leadership in 
such areas of concern to The American Legion as burn pit 
exposure, timely VA health care delivery, and career 
opportunities for veterans.
    Chairman, if I might, before I proceed I would like to take 
a moment to recognize all of the past national commanders of 
The American Legion. Gentleman and lady, would you please 
stand?
    [Applause.]
    Mr. Oxford. The American Legion Auxiliary past National 
President and current President, Nicole Clapp.
    [Applause.]
    Mr. Oxford. And, past National Commander of the Sons of The 
American Legion and their current National Commander, Clint 
Bolt.
    [Applause.]
    Mr. Oxford. Folks, we have got a great team.
    I would also like to say thank you to the members of the 
House and Senate Committees on Veterans' Affairs for once again 
giving us this opportunity. The American Legion has delivered 
the legislative priorities of our Nation's veterans and their 
families to Congress in hearings just like this for more than 
10 decades, and those priorities have produced impressive 
results--fair health care and timely benefits for veterans 
disabled by military service, from mustard gas to Agent Orange 
to IEDs; a code of respect for the U.S. flag; an arm of the 
Federal Government solely dedicated to the needs of veterans; 
veterans preference hiring; a GI Bill of Rights that changed 
the world and continues to do so; recognition and pursuit of 
effective treatment for Post Traumatic Stress Disorder among 
veterans; support for caregivers of disabled veterans; improved 
services for women.
    Our journey can be traced back to the original purpose of 
The American Legion when World War I veterans came home to 
virtually no help or support from the government that sent them 
to fight. Our mission today is a continuation of the work they 
began. From World War I we learned that we needed a VA. From 
World War II we saw what could be accomplished for the entire 
nation through GI Bill benefits and veterans' preference 
hiring.
    The Vietnam War later produced an expectation of 
accountability from the Federal Government that veterans 
exposed to toxic herbicides during their service, and those who 
came home with invisible wounds, would not be dismissed or 
forgotten.
    We continue this mission on all those fronts. Between 
Vietnam and 9/11, The American Legion and Congress worked 
together to reinvent the Veterans Administration, one that is 
now described, and I quote, ``the best care anywhere.'' Today 
so many of these issues, and new ones for a new generation, 
continue to occupy The American Legion's priority list.
    That is because The American Legion, Congress, the VA, the 
Pentagon, and the White House all share in a continuous mission 
to ensure that these important laws and policies are 
effectively implemented, given critical oversight, and are 
constantly improved. Implementation, oversight and 
improvement--that triad is the prevailing theme in The American 
Legion legislative priority list for the second session of the 
116th Congress.
    Let me start with VA health care. Much has been promised, 
and even more is expected, from the VA MISSION Act. That 
legislation was borne of a deadly crisis 6 years ago when 
veterans whose medical appointments were not scheduled, even 
though some in the VA thoughtfully claimed they were. We all 
worked hard over the last 6 years to convert that crisis into 
confidence in the VA's future.
    Today we are in a better place on VA accountability, but an 
overriding issue attached to the meltdown of 2014 persists--
timely access to care. As we press forward with such 
innovations as Project Atlas, which aims to make good use of 
American Legion post homes to provide VA telehealth services 
for veterans, we remain highly concerned about another issue--
oversight of non-VA providers.
    We understand the primary objective, delivery of care for 
veterans as quickly and efficiently as possible, but the long-
term strategy must not lead the VA any further down the road to 
privatization.
    In some areas where community care has been offered through 
the Choice program, which the MISSION Act replaces, non-VA 
providers are unwilling to accept VA patients, due to 
compensation differences or timely payments. That leaves 
serious concern that veterans will be forced to seek out the 
provider of least resistance rather than VA's best care 
anywhere.
    We must always remember why the VA is special and must be 
protected. You will find these reasons in the testimony books 
before you today. In them you will see, for instance, how 
treatment for combat-caused PTSD and TBI is a VA 
responsibility, not one delegated to the private sector. 
Advances in alternative therapies for these conditions are 
coming from veterans and VA success stories, stories we are 
still discovering every day, from equine therapy to yoga to 
peer support to clown therapy to PTR MS. These are dots for the 
VA to connect in support of veterans facing PTSD, not for other 
providers.
    When you combine the chronic pain of military injuries with 
PTSD or TBI, and then prescribe a pharmaceutical cocktail to 
blot it all out, a common result is isolation, and isolation is 
a major contributor and the most heartbreaking issue facing 
veterans today, the high suicide rate.
    The American Legion conducted an online mental health 
survey in 2019 that showed our respondents, 30 percent, 
personally, knew a veteran who died by suicide. Sixty-seven 
percent indicated they would be willing to get formal suicide 
prevention training to help reduce the rate.
    As more and more victims of military sexual trauma step 
forward to report these unthinkable violations of trust, we 
must stand together behind The American Legion policy on this 
matter--zero tolerance. But, for survivors, we call on Congress 
to provide emphatic oversight to ensure that VA is well 
resourced to install effective, discreet, and easily accessed 
services, administered by qualified professionals for these 
veterans.
    Like treatment for PTSD and TBI, care for MST survivors is 
a VA responsibility, not a provider unlikely to understand the 
military dynamics involved.
    Women veterans are currently over 2 million, and are 
increasing by nearly 18,000 per year, and represent the 
fastest-growing group entering the VA system. We have found 
that VA medical services specific to their needs are 
inconsistent and lacking in many areas.
    In our shared vision to provide oversight and make 
improvement in critical areas, we must continue to ask our 
Nation's VA health care facilities how they are fulfilling the 
needs of women veterans, hold them accountable to necessary 
changes, and critically measure their performance in the name 
of responsible oversight.
    The American Legion's System Worth Saving and regional 
office action review site visits provide our organization 
important insights into the challenges and best practices of 
the VA medical system in local communities. Typically, these 
visits begin with town hall meetings where veterans openly 
discuss the performance of their VHA and VBA providers. I would 
like to invite Members of Congress and their staff to join us 
in these events for the most important level of oversight, 
first-hand from the veterans we serve. Each year, The American 
Legion prepares and distributes a System Worth Saving report to 
Members of Congress and the Veterans Administration so they can 
use our findings to implement changes and share success stories 
that can be emulated elsewhere in the system.
    Significant progress has been made at VBA to reduce the 
backlog of undecided claims and appeals, and the Appeals 
Modernization Act is already exceeding expectations. We are 
confident this will continue as we watch the backlog shrink in 
the months ahead.
    Significant progress has also been made to roll out the 
Forever GI Bill, the biggest expansion of that benefit in over 
a decade. But, The American Legion has some serious GI Bill 
concerns that need legislative attention, one of which is 
immediate, the other to help prevent the problem in the future.
    We call on Congress to pass the Protect the GI Bill Act to 
reinstate benefits for student whose for-profit schools went 
out of business before they finished their degree programs. 
These veterans were often aggressively recruited by for-profit 
schools and are stuck with no degree and no GI Bill benefits to 
seek an education elsewhere.
    Once that is accomplished, we further ask Congress to pass 
the Veterans Education and Taxpayer Spending Act to close what 
is known as the 90/10 loophole, which now counts VA and DOD 
education funding as, and I quote, ``private dollars.'' They 
are not private dollars. They are government dollars, just like 
any other Federal student aid. This loophole has led to 
aggressive and even deceptive recruitment by for-profit 
schools, which in the worst cases have left veterans without 
degrees and drained of their GI Bill benefits.
    If history has taught us anything, the Forever GI Bill will 
not, by any means, be the final GI Bill. The American Legion 
will always be looking to improve it.
    On January 1, 2020, VBA began reviewing Blue Water Navy Act 
claims. We are thankful that this bipartisan legislation was 
finally signed into last law year on behalf of tens of 
thousands of Vietnam War veterans suffering from diseases 
related to their offshore exposure to Agent Orange. Disability 
benefits for those veterans were wrongly suspended many years 
ago, and many of them have died from their service-connected 
conditions, since then, so this implementation is long overdue.
    More recently, the National Academy of Medicine has 
recommended that four new conditions be added to the list as 
presumptively caused by Agent Orange exposure--bladder cancer, 
hyperthyroidism, hypertension, and Parkinson's-like symptoms. 
Science backs up the argument that these conditions need to be 
added now, but to our knowledge no action has been taken. We 
call on Congress to give those disabled veterans the care and 
recognition they so rightly earned--implementation, oversight, 
improvement.
    We have, in military terms, a target-rich environment. The 
American Legion is firing on those targets at the community, 
State, and national level. One example of the Legion's 
commitment to veterans and military personnel came a little 
over a year ago when our organization raised and delivered over 
$1 million in cash grants--not loans--to junior enlisted Coast 
Guard families whose paychecks were delayed by the government 
shutdown. In addition to the grants, local posts across the 
country collected food, diapers, toiletries, and fulfilled 
other needs for these Coast Guard families with children at 
home.
    To prevent this from ever happening again, we ask that you 
urge your colleagues, and appropriate committees, to pass the 
Pay Our Coast Guard Act. That measure will exempt members of 
the Coast Guard, just like any other branch of service, from 
pay disruption in the event of a shutdown.
    Passage of the Legion Act last summer gave long-awaited 
recognition to more than 1,600 Americans who have died or were 
wounded in service outside previously designated war areas. It 
is fact that our Nation has been in a perpetual state of armed 
conflict since December 7, 1941. We owe all who have served 
since then the same level of respect as others who swore with 
their lives to protect our Nation.
    We are confident that the VBA will continue to improve the 
VA claims and appeals processes. Like Dr. Paul Lawrence, Under 
Secretary for Benefits at VA, we want 2020 to be--VBA's hashtag 
campaign says ``the best year ever.''
    We stand against privatizing the VA health care system, but 
we continue to stand for its improvement. That kind of 
oversight and advocacy, we believe, can and will make the VA 
the best care anywhere.
    We intend to work hard, arm's length with Congress and the 
administration, to improve treatment of PTSD, build a better 
care environment for women veterans, help the homeless get on 
their feet, demand that VA claims are resolved faster and 
accurately, protect student veterans from GI Bill abuses, and 
continue assisting in the difficult transition from military 
service to civilian life.
    Nearly all of our marching orders can be found in one form 
or another throughout the history of The American Legion's 
relationship with Congress. Many of our shared accomplishments 
can be credited to a generation of veterans whose war ended 75 
years ago this year, the men and women who turned their GI Bill 
benefits into a half-century of American prosperity and fought 
to make the VA what it is today.
    In 2017, The American Legion National Convention passed a 
resolution to exempt from means testing all living World War II 
veterans not already enrolled in the Veterans Administration. 
This is not unprecedented. A similar measure was passed in 
1996, for the last living veterans of the Spanish-American War 
and World War I. About 75 percent of surviving World War II 
veterans are already enrolled in the Veterans Administration, 
so this does not amount to a large number. It would be a small 
gesture of gratitude for these men and women to whom the world 
owes so much.
    As we renew our vows to those who served our Nation so 
effectively and bravely today, let's remember those who came 
before us and grant them access into the system of respect and 
care they helped invent.
    Thank you, God bless America's veterans, and God bless 
America.
    [Applause.]
    Chairman Takano [presiding]. Well, thank you, Commander 
Oxford, for your testimony. I am going to recognize myself for 
5 minutes to begin the questioning. Actually 3 minutes.
    Commander, I will begin with this question. I am very 
pleased you made comment about the abuse of for-profit 
colleges. The Department recently announced plans to halt new 
GI Bill enrollment at institutions that engaged in predatory 
practices.
    In light of this decision, what are the next steps that you 
think Congress should take to protect student veterans?
    Mr. Oxford. I would like to turn that question over to 
Chairman Seehafer for his idea.
    Mr. Seehafer. Thank you very much, sir, for the question. 
You know, as the family members behind me, we always say that 
we are boots on the ground, and obviously preparing for your 
question and these things that come in front of us, I wanted to 
share with you something that I know you are concerned about, 
as well as ourselves.
    This is really, I would say, hot off the press. Last year, 
we had a young Legionnaire, also on part of our staff, that 
attended the Army's Advanced Leadership Course, right, and one 
of his battle buddies was pursuing a doctorate in national 
security from a particular university. It was inspiring to him 
to see him stay up late, you know, those nights, extra, 
studying away, being in those barracks and working on his 
dissertation.
    So, a little over a month after they graduated, this 
university abruptly closed its doors, back in March of last 
year. It was painful enough to think that, you know, all the 
time and effort that his friend was putting into getting his 
doctorate, but worse, was that he lost most of his GI Bill 
pursuing something that fell apart due to no fault of his own.
    We are definitely looking to change that. Again, we 
understand, being transparent on this, of course, another 
university stepped in. But still, the pain and all the things 
that this veteran went through--and it is not just one. There 
are numerous. We would like that changed, and recommend that.
    And, of course, there are--we do not want to punish other 
universities that are doing things right, obviously. So, we 
encourage, again, oversight. We encourage, obviously, 
improvement on this statement here.
    Again, I hope that answers your question then.
    Chairman Takano. Thank you very much. Have you done 
specific policy proposal like closing the 90/10 loophole, you 
know, making sure that we have borrowers' defense in place for 
our veterans as well who get put into debt.
    Mr. Oxford. Mr. Chairman, if I might, I would recommend and 
endorse the closing of the 90/10 loophole and pass the Protect 
the GI Bill Act.
    Chairman Takano. Wonderful. Thank you for that. I am glad 
the Legion has taken that position.
    My time is up. Actually, I am over. I am going to recognize 
ranking Member Dr. Roe for his 3 minutes.
    Dr. Roe. Thank you very much, and Commander, I am a dues-
paying member, Post 24, Johnson City, TN, I might add, and my 
dues are paid up.
    [Laughter.]
    Dr. Roe. A couple of things, Commander, on PTSD, that when 
I helped write the MISSION Act it makes this a little more 
difficult. I am a veteran and I saw veteran patients outside 
the VA. Some were for PTSD, others for other things. There are 
doctors inside the VA that never served, so we have got to find 
the best way, I think, to treat these veterans. A lot of times 
it may be outside the VA. I have run across veterans who will 
not go to the VA. We have got to reach out to them, I think. I 
think you guys are the ones--both ladies and gentlemen--are the 
ones that are critical to doing that.
    The VA cannot be everywhere. I mean, there are two million 
members of The American Legion, and that is a huge organization 
that can reach out and touch people, and we need to get them 
into care. Because I agree with you. To me it is the most 
heart-breaking thing in the world--20 men and women a day 
committing suicide. That is 6,000 people a year, that is 
totally preventable. So, how do we do that? We want to work 
with you and work together doing that.
    Another thing you did not mention in your statement was 
that I have asked DOD and VA, mainly DOD, to identify how many 
basis in Thailand got sprayed, and you were not mentioning it 
but we have got to work on that. There are a lot of people that 
are not included in Agent Orange, and we have had a hard time 
reconciling how many bases. So, if you would help us with that 
and nudge DOD a little bit to help us get that information so 
we can do what is right there, I would appreciate that. We need 
your help on that, Commander.
    Mr. Oxford. Thank you, sir. Our staff will be happy to work 
on that Agent Orange issue in Thailand. Melissa, if you will 
work with Dr. Roe's staff on that issue.
    When we think about the mental health issues, and you 
specifically mentioned veteran suicide, there is no veteran--
and that is a tragic loss that is preventable--but no veteran 
should die by his own hands. That is an atrocity. When we think 
about the 20 veterans a day who are committing suicide, only 6 
of those are enrolled with the Veterans Administration. We need 
to do our part, and we will be doing that to help the VA do 
their part.
    I think I agree with you, the fact that veterans' treatment 
at the VA for PTSD and TBI is the only way to go. That is the 
best source of help for VA as far as mental health goes.
    I think you mentioned the fact that we are all veterans, we 
are all stubborn, and the willingness to move over to the VA 
for that kind of help is a critical part, and that is where we 
can come in. We all have the ability to make those people 
understand the VA is the best source of help available. As we 
do that, we need to make sure the VA is equipped with their 
necessary resources. We need to make sure the VA is hiring 
qualified, professional, competent mental health professionals, 
and we need to increase our DOD funding of VA's suicide 
prevention program. If we do that and pass the Commander John 
Scott Hannon Veterans Mental Health Care Improvement Act, I 
think that will have an impact.
    From our side, The American Legion has instituted a program 
called the Buddy Check program. That buddy check is to reach 
out from the Legion side to all Legionnaires to check and say, 
``Hey, how are you doing? Are you Ok? Can we help? Do you need 
anything? Can we help you with anything?''
    So, as far as reaching out, The American Legion is doing 
that, but we need to continue to emphasize to society that it 
is Ok to ask for help. Asking for help is not--it used to be a 
blog on our record but it's not anymore. It is important. It is 
critical. We need to make sure every veteran realizes help is 
out there. Let us help you.
    [Applause.]
    Dr. Roe. Commander, thank you for your service in the 
Marine Corps and in the U.S. Army, and I yield back.
    Chairman Takano. Thank you, Dr. Roe. Senator Tester, you 
are recognized for 3 minutes.

            OPENING STATEMENT OF SENATOR JON TESTER

    Senator Tester. Thank you, Mr. Chairman. I want to thank 
you, Commander Oxford, for your statement today, and I want to 
thank you for your answer to the question that Congressman Roe 
put forward. Just as a little update, you probably already know 
this, the Commander John Scott Hannon bill passed out of the 
Senate Veterans' Affairs Committee by a unanimous 17-0. We got 
everybody from Blackburn to Bernie to vote for that bad boy.
    [Laughter.]
    Senator Tester. So, now all we have got to do is get 
Senator McConnell to take it up on the floor, and it will be 
off, and then Chairman Takano can work his magic on the House 
side of things, if you do not already have it passed over 
there. I do not know.
    I just want to thank you, and I appreciate your comments on 
the VA MISSION Act. I appreciate your comments on gender 
disparity within the VA. The fastest-growing population of VA 
is women. We have got to figure out how to do this right, and 
VA is not doing it right yet. I want to thank you for your 
comments on Agent Orange and that exposure, and the Colmery GI 
Bill.
    You know, we got a lot of good work done last Congress, but 
we really do depend on VSOs like The American Legion, with your 
members, to really tell us how things are working and take our 
lead from your direction.
    There are a lot of issues out there, from presumptives to 
Blue Water to the caregivers program, and it makes me want to 
ask your membership, how many folks served in Vietnam? Raise 
your hand.
    [Show of hands.]
    Senator Tester. Yeah, and raise your hand if you are under 
the age of 60 and served in Vietnam.
    [Laughter.]
    Senator Tester. Exactly. No hands went up. And so the 
question becomes, when it comes to Blue Water Navy, which is a 
Vietnam issue, and when it comes to caregiver, which is 
everybody's issue but we just open it up for the Vietnam vet. 
When it comes to presumptives, we have got to do a better job. 
I mean, the fact of the matter is, Commander, you know, the VA 
is trying to outlive you and, by God, they are getting it done. 
We should not do this.
    The Blue Water Navy was a struggle. We finally got it done. 
Caregivers is a struggle. And, by the way, Blue Water is not 
where it needs to be, and the caregiver situation, we have got 
a computer program that is not doing what it needs to do. This 
is 21st century, and you guys are getting older, and we need to 
step up.
    I would just say one thing, and I am going to ask you a 
question, I promise. But, the presumptives issue is really 
important, and the science is there. I will tell you that a 
previous Secretary of the VA was getting ready to declare these 
presumptives as being eligible for coverage. That was several 
years ago, and now we are still here.
    Could you just talk, very briefly, because I talked too 
long, could you talk very briefly, Commander Oxford, or whoever 
you want to send this to, what would it mean to your members if 
these conditions are added? The reason I say that is because I 
just dropped a bill in to make sure those presumptives are 
included in the Care program.
    [Applause.]
    Mr. Oxford. Sir, we support that bill and we would just 
specifically call on the VA to approve those four new 
presumptives--bladder cancer, hypertension, hyperthyroidism, 
and Parkinson-like symptoms. Those are symptoms that we face 
every day. So, I just want to thank you for that bill.
    Senator Tester. Thank you for your leadership.
    Chairman Takano. Thank you, Senator Tester. I now call on 
Mr. Bost for 3 minutes.

                    REPRESENTATIVE MIKE BOST

    Mr. Bost. Thank you, Mr. Chairman, and Commander, thank 
you. Thank you for your service. Thank you for being here. 
Semper fi. Not to be outdone by the Ranking Member, I also am 
very much up on my dues at the Paul Stout, in Murphysburo, 
Illinois.
    But, let me also say hi to all the members out there from 
Illinois. If you want to just stand up, raise your hand, we 
would like to recognize you. Thank you for being here.
    [Applause.]
    Mr. Bost. It was brought up about the Blue Water Navy, and, 
you know, we have done a lot of things these last couple of 
years to improve in a lot of areas, but getting that done, I 
want to thank the members at this dais that were involved with 
that, and how long and how hard they worked on that. You know, 
I have been there 5 years, 6 years, and we finally got that 
done.
    But, it is only as good as, the law itself, unless it is 
implemented correctly, so I need to find out what are you 
hearing on the ground about how quick they are reaching out to 
this long-overdue ability for these veterans, that were on the 
ships off Vietnam, there in the South China Sea, how are they 
being reached out and how fast is that going?
    Mr. Oxford. Sir, can I pass that over to Chairman Bozella?
    Mr. Bost. You bet.
    Mr. Bozella. Thank you, Commander. Senator Bost, that is a 
very important question, because since the Blue Water Navy bill 
was passed last year, we have been asking veterans in all of 
our communities to file a claim now, even though VA was not 
going to start adjudicating those claims until January 1, 2020. 
So, we are collecting that information.
    The second thing we asked was that VA health care, VA 
hospitals would begin allowing those veterans, whether they 
were eligible or not, to get in their hospitals, pending the 
fact that they have a claim on Blue Water Navy presumptives, 
and so that we could get these people seen. Now some hospitals 
were doing that and some were not. Those that were, we have 
people that are actually being seen.
    So, the anticipation is high and veterans are waiting now 
for the claims to be adjudicated. They are waiting for this.
    Mr. Bost. Ok. Good. Any suggestions you have at all for 
speeding the process up, that we could give to the Secretary.
    Mr. Nuntavong. Congressman, I think that the claims process 
needs to be done appropriately. We do not want to rush things 
and have things overlooked. So, we ask that they be done 
accurately.
    Mr. Bost. On a positive note, there was a guy that I have 
known and have worked with, and was in the trucking business 
for years, and I can remember when he had one truck, and he was 
a Vietnam veteran. Not knowing this, his son talked to me just 
the other day and said they reached out to him. He did not 
reach out to them. He had tried to claim several years ago and 
they called him up and he was getting treated, and he has had 
all the problems you can imagine from Agent Orange.
    Thank you all for being here today. My time has expired.
    Chairman Takano. Thank you, Mr. Bost.
    I now recognize Mr. Pappas for 3 minutes.

                  REPRESENTATIVE CHRIS PAPPAS

    Mr. Pappas. Thank you very much, Mr. Chairman. Commander, 
thank you for your testimony, and I want to thank the 
leadership of the Legion and the Auxiliary as well as the 
members who are here who have been communicating the message 
very powerfully to us on the Hill, about your priorities. We 
stand with you and want to continue to work with you all.
    If there are folks here from my State of New Hampshire I 
would love to see you stand up and take your applause. If not--
oh, here we go.
    [Applause.]
    Mr. Pappas. Thank you for your service. I like to say we 
support our vets as good as anywhere else in this country, if 
not better, and the support that exists across our State is 
really evident when you are out there.
    One of the things that I have been focused on, in our 
Oversight Investigation Subcommittee is VA provider payments, 
and I was appreciative that you mentioned that. If we are going 
to see MISSION Act succeed and really see community care as a 
force multiplier for VA we have got to make sure we have 
adequate networks and make sure these bills are paid. But, we 
also have to stand firm against privatization, and so I am glad 
that you mentioned that as well.
    One of the other things our subcommittee has dealt with, in 
a legislative hearing yesterday, is the issue of benefit 
overpayments, which places an undue burden on our veterans. 
These are vets who do everything right and are not expecting to 
be overpaid, and then are, you know, hit with a letter and a 
bill and have their credit scores dinged.
    So, I know the Legion has worked directly with some of 
these vets, and congressional offices have as well. Could you 
speak to the burden that these overpayments place on our 
veterans?
    Mr. Oxford. Yes, sir. I would be happy to do that. We have 
visited many VA hospitals across the country. We continue to 
believe the VA is the best care anywhere. We continue to hear 
issues like lack of payments and those kinds of issues that 
delay payments to providers.
    I would like to ask Chairman Nuntavong about your question.
    Mr. Nuntavong. Congressman, the overpayment issue, a lot of 
our members may be reservists or National Guard, and they go on 
orders, and they are receiving VA benefits as well as their 
Guard and Reserve pay. VA needs to advertise more about letting 
them know that they are being put on active duty, and stopping 
the process before they become indebted. We have out in all the 
debt management centers, Legion folks that assist veterans at 
no cost, to help them facilitate and navigate through this. It 
is a difficult problem.
    Mr. Bozella. Mr. Representative, a very important issue 
with that, that we are tracking through our System Worth Saving 
program, is that these payments that were a huge problem under 
the previous Choice Act, we thought were going to go away. 
Well, they are still a problem with the new care in the 
community act. The veterans are getting collection notices as 
they are waiting for these payments to be processed, and then 
there is also an issue with the transference of records that 
may or may not be taking place on time.
    It is a critical issue as well as a financial issue, so we 
are very concerned about that.
    Mr. Pappas. Thank you very much for your comments, and best 
wishes in the organization's second 100 years, and I yield 
back, Mr. Chairman.
    Chairman Takano. Thank you, Mr. Pappas. I now call on 
Senator Tillis for 3 minutes.
    Senator Tillis. Thank you, Mr. Chairman. Thanks again for 
being here, Commander Oxford, and your lovely wife Frances. I 
know we talked about--I asked you where you were going to be 
next, and I do not think I could keep track of the number of 
places that you are traveling across the country. Thank you for 
that service and personal sacrifice.
    I want to, first off, we went through the legislative 
priorities with the delegation from North Carolina yesterday, 
and we met in my office before the hearing, and I agree with 
and want to help all of the legislative priorities that The 
American Legion has put forth. I think we have got to make 
progress on women's health, we have got to make progress on 
preventing suicide, and that progress absolutely is rooted in 
reaching out to veterans who are not connected to the VA.
    In fact, I left my meeting with you and went to meet with 
the League of Municipalities, and I have done it with the 
Association of County Commissioners in North Carolina. I said, 
``Create a place where veterans can convene, so that we can 
find these other men and women who need service, and we can 
provide--and potentially--and will save lives.''
    The other thing I would like to really encourage all of the 
members of The American Legion is to make sure that you expect 
every Member of Congress to help you clear casework, instead of 
doing what you all do--you are stubborn and you see a task and 
you want to complete it--recognize many of us got elected so we 
could help veterans. If we are helping them, you are able to 
free your resources up to find the next one. Count me in, and I 
think every Member of Congress want to have their staff down in 
the State and here in Washington, helping clear casework.
    Now, I want to talk about toxic exposures. I chair the 
Personnel Subcommittee on Senate Armed Services and I have been 
a member of the Veterans Committee since I have been here, and 
I will continue to be as long as I am in service. I think one 
of the things we need to do is get ahead of the next Agent 
Orange.
    We still need to do right by those who were exposed to 
Agent Orange, but I think there is a whole area of information 
that we did not capture when men and women were serving that we 
have got to go back and figure out how to capture it in the VA, 
which will provide a better case and I think a faster track to 
presumptions, that age-old problem that we have when we are 
trying to get care to the veterans who deserve it.
    We are working, in my capacity on Personnel Subcommittee. 
We will have a hearing on what more information we can capture 
and the underlying health record, when the man or woman is 
serving, and make sure that that gets transferred to the new 
health record so that we can even potentially predict a problem 
before the veteran does. We do not want to stop until we are at 
that level where we are calling them up and think that you need 
care, and we may be aware, just based on the data, we may be 
aware of a problem that we can get ahead of. That is the best 
standard of care that we should work toward, and I will 
continue to work toward as long as I am in the Senate.
    [Applause.]
    Senator Tillis. The last thing I will leave you with is on 
May 9th, in North Carolina, we are hosting, in cooperation with 
the Library of Congress, a history project, where we are kind 
of connecting the dots on history but we are also making it a 
veteran's fair. We expect several hundred veterans to be there. 
We will get in touch with you all to make sure that you have 
good representation. I will have all of my caseworkers there, 
along with caseworkers from other congressional offices to live 
up to what I am telling you. We want to clear the caseload for 
you so you can go after the next crunch.
    Thank you all for your service in the past, your continued 
service, and God bless every one of you.
    [Applause.]
    Mr. Oxford. Thank you, Senator Tillis.
    Chairman Takano. Thank you, Senator Tillis. I appreciate 
your role on the Senate Armed Services Committee on the 
Personnel and Readiness Subcommittee. You are very 
strategically located. I hope that we can cooperate in a 
bicameral way, because I associate myself completely with your 
remarks about toxic exposure and your background in IT and how 
we can do that systematically. Given today's technology, I 
agree with you. We should be able to anticipate problems before 
they arise, and not repeat the 4-year delay that Vietnam 
veterans have experienced. I fully appreciate your remarks.
    Let me now call on Mr. Lamb for 3 minutes.
    Mr. Oxford. Mr. Chairman, may I address that burn pit 
issue?
    Chairman Takano. Go ahead, sir.
    Mr. Oxford. I think we have got to realize we have had 
millions of folks deployed in the global war on terror, and 
currently the DOD is working on maps of those burn pit 
locations. As we perceive and recognize that many people were 
exposed to those airborne toxins, we have got to lay the 
foundation for future claims, just like the Senator said. We 
need to presume exposure, because all of those folks were 
exposed to those toxins, and then just review the presumptive 
process as we go through that, and ensure veterans who need and 
deserve care get it.
    Chairman Takano. Well, thank you for that, Commander, and I 
understand the VSOs have formed a working consortium on the 
issue of toxic exposure and that you are all working on a 
comprehensive bill. I want you to know that on the House side 
that we are working aggressively to have roundtables, to 
broaden our understanding. I am asking that we come up with a 
master plan on how to address toxic exposures of all the 
generations of veterans out there.
    It is going to be a big bill and we need to build--I mean, 
by bill, I mean it is going to be a big price tag on all this. 
We owe this to our veterans, and we need to address this in a 
comprehensive way.
    Mr. Oxford. Thank you, sir. I would just like to add, we 
support Senators Manchin and Sullivan's Senate 2950, so that 
might be the bill that you are talking about.
    Chairman Takano. Wonderful. Wonderful.
    Well, I now call on Senator--Congressman Lamb for 3 
minutes. Congressman Lamb.

                   REPRESENTATIVE CONOR LAMB

    Mr. Lamb. Thank you, Mr. Chairman. Thank you all for being 
here. I want to especially thank Paul Kennedy and Carl Curtis, 
my constituents from western Pennsylvania. I think Paul is 
still here. They had a great visit to my office yesterday. Both 
are a huge presence in the lives of veterans in western 
Pennsylvania and do a great job keeping me and my staff 
informed as to what is going on. I really appreciate their 
work.
    I think that yesterday they really emphasized the role that 
the Legion plays in sitting down with veterans, especially 
newer members of the Legion, to just kind of talk about their 
experiences and do a lot of that one-on-one, guard-your-buddy 
type of intervention that is so important if we are ever going 
to get ahead of the problem of mental health and suicide and 
drug abuse that we still see among our veterans.
    I just want to thank all of you and let you know that we do 
see the role that you are playing and we want to help you play 
it even more.
    The good news, and something you can go home and tell your 
members, if they are asking what happened in Washington, DC, 
this week, yesterday the House of Representatives passed the 
Freed Veterans Act, which was a bill designed to make it 
automatic that 100 percent disabled veterans have their student 
loans forgiven, which is a great thing.
    [Applause.]
    Mr. Lamb. Absolutely, and it was a--the most important 
thing about how this came to be was that we had a lot of 
cooperation from both Republicans and Democrats and cooperation 
between the House of Representatives and the White House on 
this same policy, which is very rare down here but it does 
happen.
    Now, you know, we found out 100 percent disabled veterans 
have actually been eligible for this relief for quite some time 
but they weren't taking advantage of it because there was all 
this paperwork and they had to apply. It was like 20 percent of 
people were taking advantage of something, and 25,000 of these 
veterans were in default on their student loans, so they were 
at real risk to their credit.
    Now it is going to be the job of the government to make 
sure they get this relief without having to actually apply for 
it. It will be automatic. So, that was a big victory, and to 
any Senators that we have remaining here, plus Senate staffers, 
you will be seeing that bill coming over from us pretty soon. I 
just hope you will give it a good look and maybe we can move it 
forward.
    I wanted to revisit quickly what Senator Tester was talking 
about with the four presumptive conditions. He had folks in 
here raise their hand just if they had served in Vietnam. I 
would like you to raise your hand if you know anyone with one 
of those four conditions--hypertension, Parkinson-like 
syndrome, thyroid cancer, and I am blanking on the fourth.
    Ms. Bryant. Bladder cancer.
    Mr. Lamb. Bladder cancer. Thank you, Melissa. She is always 
on the ball--related to Agent Orange.
    [Show of hands.]
    Mr. Lamb. Yeah, so pretty much just as many hands as we had 
for Vietnam service, if not more. This is such a burden on the 
folks who are suffering from these conditions that is unfair, 
and the numbers are extremely high. So, please continue to work 
with us in advocating to those in the administration that they 
should add these.
    Just so you know, the VA is requesting a budget increase 
this year from Congress, a $22 billion budget increase, which 
is more--more money than it would cost to treat people with 
these four conditions as presumptive. It is not a question of 
there being no money, or, you know, a total scarcity. It is 
just a question of which veterans you are going to treat for 
what. The money is there. We just have to enact it into law and 
make sure these veterans get the treatment they deserve.
    Those are my only points. I am already out of time, and you 
all have answered any questions I had already, so thank you for 
coming and sharing everything with us.
    Mr. Chairman, I yield back.
    Chairman Takano. Thank you, Representative Lamb, for your 
advocacy on those four conditions.
    I now call on Congressman Cisneros for 3 minutes.

                  REPRESENTATIVE GIL CISNEROS

    Mr. Cisneros. Thank you, Mr. Chairman, and Commander Oxford 
and everybody else, thank you for being here this morning.
    I am a member of Post 277 in Placentia, California, and--
well, thank you--but rather than paying my dues I actually 
became a lifetime member this year.
    [Applause.]
    Mr. Cisneros. Just take it out of the equation there, and 
that way I do not have to worry about it anymore.
    You know, this past weekend I was also in Brea, which is in 
my district. Brea, California, Post 181, celebrated their 100th 
anniversary this year. It was a great celebration, to get over 
there and kind of celebrate the achievements of that post and 
how long it has been serving veterans in the 39th District 
there of California.
    Commander, I want to bring up a subject about women 
veterans. They are the largest-growing demographic, you know, 
not only in the military but also become our largest 
demographic in the veterans. I would just really like your 
opinion on really what can we do to kind of get rid of some of 
these barriers and make sure that we are taking care of our 
women veterans going into the future.
    Mr. Oxford. Thank you, sir, for that question. As you 
mentioned, over 2 million female veterans. That is the fastest-
growing population of people who participate in the Veterans 
Administration.
    First of all, we have got to recognize the contribution 
that women have made to the military services, that they 
continue to make, and to this country. We need to make sure the 
VA is responsive to the specific gender requirements. That 
includes diagnostic and treatment. Then we would also ask you 
to think about passing the Deborah Sampson Act. That should 
embrace those things we just talked about.
    But, we have got to recognize the contribution of female 
veterans, most of all.
    Mr. Cisneros. Thank you for that. You know, it is--I was 
down at the VA in Long Beach not that long ago, and really kind 
of talking to them, and really how they are trying to, you 
know, ramp up the care of the female veterans that are there. 
Yet, they still do not have an OB-GYN on staff. So, there is 
still a lot of ground that we need to make up and make sure 
that we are taking care of our women veterans.
    So, with that I just want to thank you all for your service 
and for being here today, and I yield back, Mr. Chairman.
    Chairman Takano. Thank you, Mr. Cisneros. Maybe you could 
consider some supplemental dues besides the lifetime.
    [Laughter.]
    Mr. Cisneros. I was forgetting to pay my dues every year so 
I thought I would just get right at it and take it out of the 
question, and I just became a lifetime member.
    Chairman Takano. Ok. You are at a place in life where you 
can do more, but whatever.
    [Laughter.]
    Chairman Takano. Senator Boozman, you are recognized for 3 
minutes.

                      SENATOR JOHN BOOZMAN

    Senator Boozman. Thank you, Mr. Chairman, and thank all of 
you all for being here. Where are my Arkansas folks? Very good. 
Thank you all so much.
    [Applause.]
    Senator Boozman. We appreciate you all and appreciate the 
great work that is going on in Arkansas, as all over the 
country. You know, you look out and you see so many of you 
here. That is a great statement in and of itself. The Committee 
works together in a very bipartisan way.
    I have had the opportunity to serve on the House Veterans' 
Affairs Committee and now the Senate, and that really has been 
the hallmark of both of those Committees and is carrying on 
now. We can work hard, we can do our thing, but if you do not 
have the grassroots, if you do not have you all, pushing hard, 
it just does not work.
    The other thing is we know who does all the work. A special 
thanks to the Auxiliary and all that you do.
    I would really like you to comment on a couple of things. 
Recently, in the Senate, and again, a companion bill in the 
House, Senators Tester and Moran, the John Scott Hannon 
Veterans Mental Health Care Improvement Act. We appreciate the 
fact that you all are supporting that. That is good 
legislation, getting us moving forward.
    One of the things that we were able to include is having 
some metrics. Right now we are measuring VA suicide by the 
amount of money that we are spending. We have greatly increased 
that but we are not reducing the amount of suicide. Then, 
access. Again, you know, greater access now but suicides are 
not coming down. So, we need the ability to actually measure 
what these programs are doing, get rid of the ones that are not 
working, you know, and then increase the others.
    Can you or some of your folks talk to us a little bit about 
how we can reach those veterans that are not part of the VA 
system? You know, about 20 are committing suicide and only 6 or 
so of those are actually in the system. What do we do to get to 
those that are not in the system?
    Mr. Oxford. If I might address that, sir. The American 
Legion Buddy Check program that we have is the best way that I 
know of to do that. We have got Legionnaires reaching out to 
other Legionnaires, just to say, ``Hey, how are you doing? Do 
you need anything? Can we help? Is there something we can do to 
help?''
    We also need to education--and this is a public education 
process, I think--to identify the veterans that are not 
involved with the Veterans Administration, and get them to 
enroll. That is the biggest thing we can do. You mentioned 20 a 
day--6 are enrolled but those other 14, that has got to be a 
public society issue, as we reach out to those veterans and 
say, ``It is Ok to ask for help. We need you to let us help 
you.''
    We also have our System Worth Saving. You mentioned 
metrics. Our System Worth Saving reviews, are constantly 
visiting VA hospitals to review those kind of metrics that you 
are discussing. The System Worth Saving site review is not an 
inspection. What we want to do is identify the good things that 
are happening and maybe identify some things that are not going 
so well, and provide that information back to Congress and the 
Veterans Administration. The metrics we have, we are using, so 
please continue to provide that information.
    Senator Boozman. Very good. Then, I will close with 
thanking you for your support of the Deborah Sampson issue 
which was expounded on earlier. Again, I would just second that 
as to how important that is, which we all know.
    Thank you, Mr. Chairman.
    Mr. Oxford. Thank you, sir.
    Chairman Takano. Thank you, Senator Boozman.
    I recognize Senator Sinema for 3 minutes.

                     SENATOR KYRSTEN SINEMA

    Senator Sinema. Thank you, Mr. Chairman, and good morning. 
Thank you to our witnesses for being here, and for all our 
veterans who have joined us today, especially those from 
Arizona.
    Commander Oxford, it was a pleasure working with The 
American Legion to pass the Legion Act, and I am so excited to 
be working with you again to establish a pilot site for Project 
Atlas in Arizona. This program is an innovative partnership 
between the VA, Philips Health *Care Systems, and The American 
Legion, and it is bringing remote telehealth exam rooms that 
connect veterans with the VA to regions where those connections 
are hard to establish.
    Arizona's rural veterans will be greatly served by this 
partnership, and thank you for your leadership with this 
effort.
    I share The American Legion's position that we must 
continue to improve access to care for military sexual assault 
survivors. Research has shown that peer support specialists are 
a significant factor for veterans seeking help with experiences 
such as military sexual trauma. Can you speak about the VA's 
peer support specialists and their impact on veterans seeking 
treatment for MST?
    Mr. Oxford. I would like to ask Director Bryant to address 
that question.
    Senator Sinema. Thank you.
    Ms. Bryant. Thank you, Senator. We recognize that peer-to-
peer support is critical in navigating the VA, especially for 
survivors of military sexual trauma or assault. There is the 
potential of revictimization, retraumatization as you are 
retelling and recounting your stories repeatedly throughout 
that process. It is necessary for medical documentation, but we 
know that it can also be extremely painful to the veteran, and 
not just to women, but to me as well, because men are also 
survivors of MST.
    So, those peers that help you navigate the system are vital 
in going forth and having your service connection annotated in 
a way that is safe both the veteran, and they are in an 
inclusive environment where they are safe to share their 
experiences and then also receive the desperate care that they 
need.
    Senator Sinema. Thank you. Ms. Bryant, a follow-up 
question. What are some other steps that we in Congress can 
take to make military sexual trauma care more available to 
survivors throughout the military?
    Ms. Bryant. To make it more available to those throughout 
the military is, one, expanding what are doing in our community 
partnerships. We want to ensure that the provisions that are 
under the House version of the Deborah Sampson Act, that those 
possibly can get reconciled with the Senate version that is 
going forward, and thank you again to Senator Boozman for your 
support with the Deborah Sampson Act.
    But, there is a lot that we can continue to do to have our 
arms wrapped around those women and male survivors of military 
sexual trauma. We look forward to working with you and your 
staff on this further.
    Senator Sinema. Thank you so much. Commander Oxford, a 
skilled VA workforce is crucial to the delivery of care and 
services to veterans. Since fiscal year 2011, the VA Office of 
the Inspector General has listed human resources management in 
the top 10 nonclinical occupational shortage areas across the 
Veterans Health Administration. How do you think that this 
shortage impacts VA's ability to provide timely and quality 
care to our veterans?
    Mr. Oxford. As we tour the country, and we have been to 
several veterans hospitals, VA hospitals, we have seen several 
staff shortages because of lack of the ability to find and hire 
qualified professionals. In addition to that, I would like to 
ask Chairman Bozella to address the issue.
    Mr. Bozella. Thank you, Commander. Thank you, Senator. The 
H.R. problem of not enough providers is one of the number 1 
issues that we see within VA, but it goes beyond providers, as 
you suggested. The American Legion is trying to help VA with 
the onboarding process, for one issue, and onboarding, again, 
for health care providers as well as non-providers. It could 
take four to 6 months for somebody who has applied for a job in 
the VA to be able to finally accept that position, get on 
board, and be working at that particular facility.
    There is another problem with transference of jobs, and 
again, non-health care providers, it is a difficult process.
    That is the number 1 thing we think, outside of 
recruitment, that people have to work on, is how quickly can we 
get somebody into that job.
    Senator Sinema. Chairman, if I might follow up, what should 
the VA and Congress do to address that specific issue and other 
personnel challenges we face?
    Mr. Bozella. I believe there is a bill--I do not know where 
it is; it has not reached committee yet on the Senate side--
that is looking at that as a pilot study, and I believe it is 
Senator Gardner who has put that forward. What we understand is 
that bill may be looked at soon. That is all I know about the 
bill at this point. But, that is a start. So, at least on a 
pilot you will be able to trial things to see how they are 
working and maybe if it becomes a well enough practice that 
could be replicated.
    Senator Sinema. Thank you. Commander Oxford, as the VA 
implements the expansion of the caregiver support program under 
the MISSION Act, what should it to do ensure a more holistic 
and inclusive support program for our caregivers?
    Mr. Oxford. Thank you for that question. I think first of 
all we have got to recognize the caregivers of all of the 
injured service men and women since the global war on terror, 
but we also need to recognize the caregivers from other 
periods, and there are several. But, these caregivers have been 
essential to the readjustment of those injured veterans during 
their time of need. As we think about caregivers we have got to 
realize they are saving us money. If a caregiver is providing 
those services at home then we do not have to pay somebody else 
to do it. So, it is a savings to us, and we just need to 
continue the oversight of that issue.
    Let me turn this over to Director Nuntavong for his 
comments.
    Mr. Nuntavong. Senator, thank you for your question. After 
a year to prepare, VA missed another mark in the MISSION Act 
deadline, implementing the expansion of these benefits to these 
caregivers. It is a shame that these individuals do not have 
access to the financial benefit that, by law, they deserve and 
they have earned, based on a technicality that VA themselves 
created with their IT issue.
    We would like to work with both Committees to draft 
legislation that will guarantee effective dates for these 
caregivers so they can be compensated appropriately, just like 
disability compensation, for these hardworking individuals.
    Senator Sinema. Thank you. Thank you all for your time 
being here, and, Mr. Chairman, I yield back.
    Chairman Takano. Thank you to Senator Sinema. I now turn 
the meeting back over to Chairman Moran.
    Chairman Moran [presiding]. Is there someone who has not 
been recognized?
    Chairman Takano. Everyone has been recognized and if we 
have another Senator coming in, I heard one is en route, but 
the question is yours, sir.
    Chairman Moran. Thank you very much.
    Commander, I, of course, have not had the benefit of 
hearing what you had to say, and so I would not intend to ask 
questions that might cause either your testimony or answers to 
my colleagues' questions to be repeated. But, I guess I would 
want to give you the opportunity in my presence to make any 
statement or any request that you specifically would like, or 
to reiterate to my colleagues what you would like for me and 
others to know.
    Mr. Oxford. Yes, sir. Thank you for that opportunity. 
Before I conclude I would just like to reiterate three 
important issues. First of all would be Agent Orange. It is 
time to end the unnecessary delays and give those veterans the 
care they deserve, and it is imperative the Secretary approves 
the presumptives that we have talked about, being recommended 
for bladder cancer, hypertension, Parkinson-like symptoms, and 
hyperthyroidism.
    Second of all would be the issue we just discussed, 
caregivers, continued oversight on the expansion of the VA 
program, Comprehensive Assistance for Family Caregivers, under 
the caregiver support program, to ensure those folks are 
provided the care that they need and deserve.
    Our World War II veterans, The American Legion has been 
working with Senator Menendez's office to draft legislation to 
accomplish this, and we are looking for cosponsors to ensure a 
bipartisan bill before introduction. That would end means 
testing for World War II veterans to receive VA benefits. 
Congress has already done this for soldiers who served during 
the Mexican Border War and World War I, and it is only fitting 
that the Greatest Generation should be exempt from means 
testing to become enrolled.
    The American Legion would urge Congress to pass a 
bipartisan bill to address this issue immediately.
    Senator, if I might, before I leave, I would like to 
correct a major mistake that I made. I would like to introduce 
my wife before we go too far along.
    [Laughter and applause.]
    Mr. Oxford. Thank you for that opportunity, Senator.
    Chairman Moran. Commander, I wanted to see how you operated 
under fire, and I was hoping to deny you that request----
    [Laughter.]
    Chairman Moran [continuing]. So that I could learn more 
about the man. We are honored to have your spouse, your wife 
here with you, and we thank her for her service and support of 
you and The American Legion.
    Let me ask a final question and then we will conclude. I 
want to know how we can--what are the criteria, the metrics 
that we can use to determine the long-term effect of veterans' 
interaction with VA? How is the VA doing, not just today but 
are there measures that would tell us that, in the long run, 
the VA is on the right path and veterans are getting the care 
and attention that they deserve and are entitled to?
    Mr. Oxford. Well, Senator, I am going to take a little 
personal privilege here. Our System Worth Saving reviews are 
the best way to do that. We visit VA hospitals regularly, and I 
think we currently have 18 visits scheduled. We visit we look 
for things that are going well, things that are not going well, 
and provide that information back to you and the VA.
    As we move forward, those metrics are out there. We are 
looking at those kinds of things regularly, and we will 
continue to do so, and invite you or your staff to participate 
any time.
    Chairman Moran. I was waiting to see if you had 
instructions.
    Mr. Oxford. Well, I have just got one more piece of 
instruction. The veterans that we talk to really think the VA 
is the best care available. We prefer the VA. So, if there is a 
way we can continue to do that, that is the right answer.
    Chairman Moran. I thank you for that answer, and it 
corresponds with my view that I learn the most when I am 
talking to veterans at all stages of their care and treatment, 
all stages of their life, how they are being cared for. It is 
an opportunity for us to get the best information, and I thank 
you for that.
    I certainly would make clear to you that while we were--I 
was fully engaged in this Committee, the Senate Committee, and 
the Senate passed the MISSION Act, in my view it is nothing to 
replace the VA. It is fully to augment the VA in providing care 
and services for those who, in their best interest, need 
another venue.
    My views are often reflective of my days as a House member, 
although still as a Kansan my House days I represented a 
congressional district as large as the State of Illinois. No VA 
hospital. Hours and miles are a huge component of the way I 
look at how do we get services to people in certain 
circumstances.
    But, despite that bias, in that regard, I want to do 
everything I can to make certain that veterans are cared for 
within the VA. Again, we are looking for the best interests and 
give veterans some options. I appreciate that opportunity.
    Finally, I would say that I appreciate the role that The 
American Legion played in the original GI Bill, and I 
appreciate the role that a Kansan had in its creation and 
enactment. An American Legion member from Emporia, KS, wrote 
down on a napkin the ideas of a GI Bill, and we had a President 
named Eisenhower who made it into law, and we take great pride 
in that history of our State.
    It may appear that I am stalling, and my stall has been 
successful.
    [Laughter.]
    Chairman Moran. Senator Sullivan has been recognized.

                      SENATOR DAN SULLIVAN

    Senator Sullivan. Mr. Chairman, thank you for stalling. 
Sorry. We have a number of hearings going on this morning, but 
fortunately one of the hearings I was just in, in the Commerce 
Committee, my colleague sitting next to me was Senator Moran, 
who happens to be the Chairman of this wonderful Committee in 
the Senate. When he left I said, ``Hey, can you tap dance a 
little bit for me until I can get there?'' So, thank you, Mr. 
Chairman, for that stalling.
    I want to first do--you know, I learned that this hearing 
is so popular that there has to be tickets for is. It is like a 
rock concert or something. I want to do a shout-out. I know 
that there are more Alaskans here, but do we have at least two 
of my fellow Alaskans in the audience here? How about a thank 
you and a round of applause.
    [Applause.]
    Senator Sullivan. They usually get the award for the 
furthest travel, and we like to acknowledge our State as having 
more vets per capita than any State in the country, so I want 
to thank them for that.
    Well, I want to thank our leadership here, and I do want to 
mention it is great to see our Commander is a fellow U.S. 
Marine, so Commander, thank you, sir.
    I also want to just express my appreciation to The American 
Legion for having officially endorsed the legislation that 
Senator Manchin and I have introduced, S. 2950. That is the 
Veterans Burn Pit Exposure Recognition Act. Commander, perhaps 
you can say a word on that.
    The whole point of this legislation, having been through, 
for our incredible Vietnam vets, the Agent Orange, the Blue 
Water Navy, all of these issues where, let's face it, Congress 
was playing catch-up for way too many years, decades. Our 
veterans were waiting, waiting, waiting. Many died before there 
was direct action. What we are trying to do with this burn pit 
legislation is get in front of an issue that we know is going 
to impact the next generation of our veterans.
    So, that is the goal, and I am very honored, Commander, 
plus the rest of the leadership here, that you are supporting 
the legislation. It is getting a lot of momentum, Mr. Chairman, 
we are hopefully going to move it out of the Committee in the 
Senate and House and get it passed into law here soon.
    But, sir, can you comment on that?
    Mr. Oxford. Yes, sir. I would be happy to. Sir, if you need 
a ticket, let me know and I will get you a ticket.
    [Laughter.]
    Mr. Oxford. I would also like to say semper fi, always and 
forever.
    We do support S. 2950, sir, so just look forward to working 
with you on that as we move forward.
    But, when we think about burn pits, we are facing similar 
questions as we did with Agent Orange. We have got to assume 
that the millions of people deployed to the global war on 
terror are facing those kinds of airborne toxins that we saw 
with Agent Orange, and it is primarily because of burn pits.
    The DOD has started the process of drawing maps and 
establishing locations of those burn pits, so we will have a 
way to assume those presumptives. That is what we have got to 
do is presume the exposure to those airborne toxins and then 
just review the process to make sure those veterans who need 
and deserve care get it.
    Senator Sullivan. Great. Mr. Chairman, if I may, one final 
thing on that. What we have been trying to do on this is work 
with, of course, the VSOs, right, all of you, but also with the 
VA. So, we want to make sure this is collaborative with 
everybody--our veterans, first and foremost, the Congress, in a 
bipartisan way--and the VA. That is the goal here and we are 
hopeful that we can move that soon.
    So, thanks again for all of your great service, every 
member here, and it is an honor to serve all of you.
    Chairman Moran. Senator Sullivan, thank you. Thank you for 
your extraordinary effort to get here and to be able to spend 
time with The American Legion.
    Commander Oxford, I would give you a final opportunity if 
there is anything else you forgot to say today, to do so.
    Mr. Oxford. Thank you for that opportunity, sir. It is just 
a privilege and a pleasure to be able to sit before you and 
represent the 1.8 million Legionnaires from across the country. 
It is just an honor to be here, and thank you for the 
opportunity. We so much appreciate our opportunities to work 
together, and continue to offer American Legion help, and 
anything else we can do to help you do your job because you are 
helping us do our job so much.
    Chairman Moran. Commander, thank you for that. Thank you 
for your presence here today. Thanks for your leadership team 
and all the members of The American Legion and the Auxiliary 
who are present with us. I know many traveled long distances 
for the purpose of making their case to Members of Congress, 
and we welcome that.
    I also would thank you, as Congressman Roe did, for the 
expertise and the team that you have here on a daily basis that 
work with our Committees to provide us with information and 
input and to see that we do our jobs better. I am grateful for 
their help.
    I would now ask unanimous consent that members have five 
legislative days to revise and extend their remarks and include 
any extraneous material.
    With that, without objection, so ordered, and the hearing 
is now adjourned.
    [Applause.]
    [Whereupon, at 11:25 a.m. the Committees were adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      

                                  [all]
</pre></body></html>
